CERTIFICATE OF SERVICE
No. 19-395
Christina Alessio
Petitioner(s)
v.
United Airlines, Inc.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Supplemental Brief of Petitioner Christina Alessio, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Natalie Michele Stevens
Ogletree Deakins
127 Public Square
Suite 4100
Cleveland, OH 44114
(216) 241-6100
natalie.stevens@ogletree.com
Counsel for United Airlines, Inc.

Lucas'DeDeus

October 16, 2019
SCP Tracking: Alessio-1970 N. Cleveland-Massillon Road-Cover TAN

